tis
I

C@OCKLE

E E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214 >
Est. 1923,

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

STANFORD VINA RANCH IRRIGATION COMPANY,
Petitioner,
v.

STATE OF CALIFORNIA, STATE WATER
RESOURCES CONTROL BOARD, STATE WATER
RESOURCES CONTROL BOARD MEMBERS
FELICIA MARCUS, DOREEN D’ADAMO,
FRANCES SPIVY-WEBER, STEVEN MOORE,
AND TAM DODUC; and DOES 1 THROUGH 20,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 7958 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 22nd day of December, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY State of Nebraska Dad A hb,
RENEE J. GOSS 9. .

wzal seem My Comm. Exp. September 8, 2023
Notary Public Affiant

 
 

 

40398
